APPENDIX A

Case 18-3554, Document 88-1, 04/15/2020, 2819543,

of 2

18-3554
United States v. Jones

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT'S LOCAL RULE 32.1.l.

WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DAT ABASE (WITH THE
NOTATION "SUMMARY ORDER"). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY
OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York on the
15 th day of April, two thousand twenty.
Present:

AMALYA L. KEARSE,
GUIDO CALABRESI,
ROSEMARY S. POOLER,
Circuit Judges.

UNITED STATES OF AMERICA,

Appellee,
18-3554-cr

V.

ALGERE JONES, AKA Bush,

Defendant-Appellant.

Appearing for Appellant:

Marlon G. Kirton, New York, N.Y.

Appearing for Appellee:

Kedar S. Bhatia, Assistant United States Attorney (Emily
Deininger, Sarah K. Eddy, Assistant United States Attorneys, on
the brief),for Geoffrey S. Berman, United States Attorney for the
Southern District ofNew York, New York, N.Y.

Appeal from the United States District Court for the Southern District of New York (Sullivan,
J.).

Case 18-3554, Document 88-1, 04/15/2020, 2819543, Page2 of 2

ON CONSIDERATION WHEREOF, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the judgment of said District Court be and it hereby is AFFIRMED.
Algere Jones appeals from the November 16, 2018 judgment of the United States
District Court for the Southern District of New York (Sullivan, J.) convicting him of violating
his supervised release by (1) committing a narcotics offense; and (2) traveling to Pennsylvania
without permission. Jones was sentenced principally to 36 months' imprisonment, to be followed
by a life term of supervised release. We assume the parties' familiarity with the underlying facts,
procedural history, and specification of issues for review.
Jones primarily challenges his conviction on the ground that the exclusionary rule for
Fourth Amendment violations applies in supervised release hearings and bars the admission of
drugs seized from the car he was driving. That argument is foreclosed by this Court's recent
decision in United States v. Hightower, 950 F.3d 33 (2d Cir. 2020), which holds that the
exclusionary rule does not apply in federal proceedings to revoke supervised release. Nor do we
find any merit in Jones's remaining argument that the district court erred in finding that the
evidence credibly established that the drugs tested by the forensics lab were the same substance
recovered from the car. See, e.g., United States v. Gomez, 877 F.3d 76, 96-97 (2d Cir. 2017)
(noting that a district court's credibility determinations are given "special deference" on appeal
(internal quotation marks omitted)).
We have considered the remainder of Jones's arguments and find them to be without
merit. Accordingly, the order of the district court hereby is AFFIRMED.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

APPENDIXB

Case 1:11-cr-00933-RJS Document 110 Filed 09/21/18 Page 1 of 6

l ':\JffFD STATES DISTRICT COURT
SOl l HER~ DISTRICT OF Nl:W YORK
t fN!TU) STA n-s OF AMERICA

No. 1 l-cr-933-2 (RJS)
ALGERE JONES.

OPINION AND ORDER
Defendant.

g_t<,:HARD J. SULUV AN, District Judge:
Nov. before the Court is Supervisee Algere Jones's motion to suppress 1hc evidence
seized from his car on March 20, 2017.

(Doc. No. 100.)

For the reasons that follow.

Supenisee·s motion is DENIED, and the Court finds that the government has proven
spcci!ication one · which alleges that Supervisee ''possess[ed] vdth intent to manufacture or

deliver heroin'' -- by a preponderance of the evidence.

L BACKGROUND
On February 15, 2012, Supervisee pleaded guilty to the charge of conspiracy to distribute

and possess with intent to distribute cocaine in violation of 21 U.S.C. § 846 and 21 U.S.C.
~

84 l (h }( l )( B).

On December 2. 2014. the Court sentenced Supcrvisl'c to seven years of

incarceration. lO be f<:Jllowed by a life term of supervised release. (See Doc. No. 76.) Supervisee

\\as rckased from custody and his supervision commenced on October 3, 2016. Howcn:r, on
,'\pril 4. 20! 7. the United States Probation Otficc for the Southern District of New York
submitted a memorandum to the Court alleging that Superviscc had violated the conditions of his

supcn iscd rl'lcase by (l} "posscssl ing l with intent to manufacture or deliver heroin·' and (2)
··Ic!a\ingl the judicial district without the permission of the Court or the U.S. Probation

Case 1:11-cr-00933-RJS Document 110 Filed 09/21/18 Page 2 of 6

Office .... " On May 30. 2018 and June I L 2018. the Court held a hearing on the two alleged
violations at which the Court heard testimony from Pennsylvania State Trooper David C. Long IL

Proha1ion Officer Paula Dunn, and forensic scientist Gabriel r.!inas. As relevant to this opinion,
!moper Long testified that. on March 20, 2017. he stopped Supervisee as
southbound on Interstate 81 near Harrisburg, Pennsylvania.

was driving

(Doc. No. 96 at 7:21--9:4.)

Thereafter. Trooper Long conducted a search of Supervisec·s vehicle and recovered a hrovvn

paper bag filled with LO I 9 packets of what he believed to be heroin from underneath the front
passenger's seat. (Doc. No. 96 at 17:15-20:11.) Mr. Uinas testified that he subsequently tested

the substance rec.:overed by Trooper Long and concluded that it did, in fact. contain heroin. (Doc
No. 104 at 97:14--17: 99:19--104:22.) The bag containing the hemin packets \Vas admitted into
c\·idencc as Government Exhibit 7.

(Doc. No. 96 at 18:9,.22; 31:12--13.) Probation Officer

Dunn kstifit.:d that she never gave Supervisec permission to travel to Pennsylvania. (Doc. No.
104 at 77: l ()- 18.} At the conclusion of the hearing. the Court determined that the government

had proven specification two -··· that Supervisee kft the judicial district v. ithout the permission of
the Court or the l 1nitcd States Probation Office for the Southern District of Nev, York -- by a
preponderance of the evidence, but reserved judgment on specification one pending SupcrYiscc·s
motion to suppress Government Exhibit 7. On July 5. 2018, Supcrvisee filed the instant motion
to suppress {Doc. No. JOO). which was fully briefed on August 2, 2018 (5,'ee Doc Nos. 107, 108).

IL DISClJSSJON

A. Motion to Suppress
The I-ourth Amendment guarantees that ·'[tJhe right of the people to be secure

their

persons. houses. papers. and effects. against unreasonable searches and scinircs, shall not be
violated. and no warrants shall issue, but upon probable cause ... ·· U.S. Const. amend. IV.
2

Case 1:11-cr-00933-RJS Document 110 Filed 09/21/18 Page 3 of 6

Traditionally, evidence ohtained in violation of the Fourth Amendment has been suppressed
pursuant to the exclusionary rule.

See Mapp v. Ohio, 367 U.S. 643 (] 96 l ).

However, the

exdusiona1} rule is merely ..a judicially created means of deterring i!legal searches and
sci;:ures! T and the government's ··use of evidence obtained in \. io!ation of the Fourth
Amendment docs not itself Yiolatc the Constitution." Penn Bd of"Proh. & Parole v. Scott. 524

t:.s_ 357. 363. 362 (1998).

Accordingly, the Supreme Court has held that because the

exclusionary rule .. is prudential rather than constitutionally mandated," it is '·applicable only
where its deterrence benefits outweigh its 'substantial social costs."' Id. at 363 ( quoting L'nited
States r Leon, 468 U.S. 897, 907 (1984)). The Supreme Court has thus found the exclusionary

rule to be inapplicable to. inter alia, grand jury proceedings. see United ,\'tales v. Calandra. 4 l 4

l 1.S. 338 (1974), habeas proceedings, see Stone v. Powell. 428 lJ.S. 465 (1976). federal civil tax
proceedings, see Un;ted Stales v. Janus. 428 U.S. 433 (1976). civil dcpo11.ation proceedings. see
J.\'S \'. /,ope::-Mendo::a. 468 U.S. 1032 (1984). and. most relevantly. state parole revocation

proceedings. see ::.:corr. 524 U.S. 357. in fact. the Supreme Court in Scoll indicated a general

un~illingness '·10 extend the operation of the exclusionary rule beyond the criminal trial
context.·· Scoff. 524 U.S. at 364; see also id at 365 n.4 ("As discussed above. we have generally
held the cxdusionary rule to apply only in criminal trials. We have, mon.·ovcr, significantly
lirnikd its application even in that context.").
Several courts in this circuit have extended the Supreme Court's holding in :-;colt

that

the c,clusionary rule is inapplicable to state parole revocation proceedings· to conclude that the
c:xdusionary rnk is similarly inapplicable to federal supervised release revocation proceedings.
See, e.g.. lJnited Stares

1·.

Hightower, 312 F. Supp. 3d 426. 428 (S.D.N.Y. 2018): United Stares v.

5p,rnccr. No. 06-cr-413 (DU). 2016 WL 6781225. at *4 (EJ).N.Y. Nov.15.2016): l'nifedState,,·
3

Case 1:11-cr-00933-RJS Document 110 Filed 09/21/18 Page 4 of 6

1-.

\ledrano. No. 08-a-60 (WHP), 2012 WL 3055758, at *2 (S.D.N.Y. July 20. 2012). These

courts ha\·c noted and relied upon the Second Circuit's clear pronouncement that "'the

constitutional guarantees governing revocation of supervised release arc id<:ntical to those
applicable to revocation of parole or probation." United States v. Jones, 299 F.3d l OJ, l 09 (2d
Cir. 2002).
Not'Aithstanding this amhority, Supervisce argues that the Supreme Court's holding in
Scot! should not he extended to federal supervised release revocation proceedings.

(Doc. No.

103.) Instead. Superviscc suggests that the Second Circuit's holding in Uni1ed States v. Rea
decided sixteen years before s·col! and twenty years before Jones - is the more applicable

precedent (Doc. No. 103 (citing Uniled States v. Rea. 678 F.2d 382. 388 (2d Cir. 1982) (holding
that ··evidence seized by a probation officer in an illegal wnmmtless search of a probationer's

homi! is inadmissible at a subsequent probation revocation hearing.'")).) Like the other courts in
this circuit to have considered this issue, the Court concludes that Nea has been ahrogated by

,,·cott. See, e.g. Spencer, 2016 WL 6781225: Medrano, 2012 WL 3055758; [·nited States v.
Betances, No. 03-cr-134 (JSR). Doc. No. 206 (S.D.N.Y. Apr.

20 l 2). Contrary to the Rea

Court's conclusion that ··the deterrent effect to be gained b} applying the exclusionary rule in
probation revocation hearings ... substantially outweighs the potential injury to the function of
those proceedingsl,f' Rea. 678 F.2d at 389. the Supreme Court in Scott determined that the
exclusionary
C(mtc·<t

mlc would "provide only minimal deterrence benefits" in the parole revocation

"hecausc application of the rule in criminal trials already provides significant dctcrrcrn:e

of unconstitutional scarches[,f' Scott, 524 U.S. at 364. The Supreme Court further explained:
The 1:osts of excluding reliable. probative evidence are particularly high in the
conte:-.t of parole revocation proccedingsfl {because! lplarole is a "variation on
imprisonment of convicted criminals,'' Morrissey i·. Brewer. 408 U.S. 471, 477
4

Case 1:11-cr-00933-RJS Document 110 Filed 09/21/18 Page 5 of 6

(l 972), in which the State accords a limited degree of freedom in return for ihe
parolee· s assurance that he will comply with the often strict terms and conditions
of his release. In most cases. the State is vvilling to extend parole only because it
is able to condition it upon compliance with certain requin::ments.

/J. at 365.

rhe Court finds that this analysis is equally applicable to the federal supervised

release context and therefore concludes that the exclusionary rule is not applicabic to supervised
n:kase revocation hearings. 1 Accordingly, IT IS HEREBY ORDERED ·1 HAT Supervisce·s
motion to suppress Government Exhibit 7 is DENIED 2

B. Specification One
I Im ing denied Supervisee's motion to suppress, the Court now turns to the question of
whether Supervisce violated the conditions of his supervised release by "possessing with intent to
manufacture or deliver heroin[.

r

The government has the bmden of pro\·ing that Superviscc

violated a condition of supervised release by a preponderance of the evidence. See 18 U.S.C.
~

J583(e)Ci).

In light of the physical evidence seized from Superviscc·s vehicle and the

testimony of Trooper Long and Mr. Llinas outlined above. the Court concludes that the
government has met its burden. Specifically. the Court finds that Supcrviscc possessed with
intent to distribute the L0l 9 packets of heroin recovered by Trooper Long. tested by l\fr. Uinas,

and admitted into evidence as Government Exhibit 7.

1

Supenisec al<;o ~uggcsts that the Second Circuit's summary order in United States r. Lewis. 712 F. App'x 83 (2d
in which the Second Circuit noted that it ··ha!s] yet to decide whether the exclusionary rule appli-:s to
sup-:n iscd release revocation proceedings!}" somehow supports his contention that the exclusionary rule applies lo
"Ulk'tvised relcasc revocation proceedings. ( Doc. No. 108 at 2.) However. the mere fact that Second Circuit has not
: 1:t dctermined \\ hether the exclusionary rule applies to supervised release revocation pro-.:eedings does not bar this
Court from detennining that it does not.

Cir. 20 l 8)

' Bce1ws1: th"' Court concludes that the exclusionary rule does not apply in the conkxt of supervised release
r~·voc.llmn hearings. it need not consider Supervisee's request to reopen the hearing to resol,e alleged material issues
of fr11:t that might b~;,ir on the question of ·'whether or not there was probable causs• ... or reasonable suspicion for
the search ofthe ,·chide ,. (Doc. No. l 08 at 6.)

5

Case 1:11-cr-00933-RJS Document 110 Filed 09/21/18 Page 6 of 6

JII. CONCLUSION

For lhe foregoing reasons. Supervisee's motion to suppress is DENIED. The Court finds
that Supenisce possessed with intent to distribute heroin in violation of the tem1s of his
supl..'rYised release. Accordingly. lT fS HI:REBY ORDERED THAT the parties shall appear for
scntcm:ing on specifications one and two on Wednesday, October 17. 2018 at l 0:30 a.m, JT IS
Ft'RTHFR ORDERED THAT the parties shall file their sentencing suhmissions no later than
October I 0, 2018. The Clerk of Court is respectfully requested lO terminate the motion pending
at docket number 100.

SO ORDERED.
Dated:

September 2 l. 20] 8
New York, New York

RfCHARD J. SULLIVAN
UNITED STATF.S DISTRICT JUDGE

6

